No. 20-6929

IN THE
SUPREME COURT OF THE UNITED STATES

STEPHEN HUGUELEY,
Petitioner,
v.
TONY MAYS,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

PROOF OF SERVICE OF RESPONDENT’S BRIEF IN OPPOSITION TO PETITION
FOR WRIT OF CERTIORARI

HERBERT H. SLATERY III
Attorney General and Reporter
State of Tennessee
ANDRÉE SOPHIA BLUMSTEIN
Solicitor General
RICHARD D. DOUGLAS
Assistant Attorney General
Counsel of Record
500 Dr. Martin L. King Jr. Blvd
P.O. Box 20207
Nashville, Tennessee 37202-0207
(615) 741-4125
Counsel for Respondent

1

Pursuant to Supreme Court Rules 15.1, 15.3, 29, 33.2, and 39, and as a member of the Bar
of this Court and as counsel of record for Respondent, I certify that a true and exact copy of
Respondent’s brief in opposition to the petition for writ of certiorari has been furnished to all
parties required to be served in this cause, by email and by placing a copy in first-class U.S. Mail,
postage paid, on the 24th day of February, 2021 to:
Amy Dawn Harwell
Assistant Chief Capital Habeas Unit
Federal Public Defender’s Office
810 Broadway Suite 200
Nashville, TN 37203
Amy_Harwell@fd.org

2

